U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


          NATIONAL OCEANIC AND
    ATMOSPHERIC ADMINISTRATION

           NMFS Office of Law Enforcement
           Needs Management Improvements


       Audit Report No. STL-9835-8-0001 / September 1998




                   Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                                         Report No. STL-9835-8-0001
Office of Inspector General                                                                                     September 1998


                                                            CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

    I. NMFS POLICY DIRECTION FOR ENFORCEMENT NEEDS FOCUS . . . . . . . . . . . . . . 3

        A. RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
        B. AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
        C. OIG COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

    II. PERFORMANCE MEASURES NEED TO BE MORE SPECIFIC . . . . . . . . . . . . . . . . . . . 6

        A. RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
        B. AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
        C. OIG COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

    III. ROLE AND DEPLOYMENT STUDY OBJECTIVES WERE LIMITED . . . . . . . . . . . . . 8

        A. RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
        B. AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
        C. OIG COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

    IV. VESSEL MONITORING SYSTEM NEEDS CAREFUL PLANNING . . . . . . . . . . . . . . 11

        A. RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
        B. AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
        C. OIG COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

APPENDIX I - AGENCY RESPONSE
U.S. Department of Commerce                                              Report No. STL-9835-8-0001
Office of Inspector General                                                          September 1998


                                    EXECUTIVE SUMMARY

The National Marine Fisheries Service is responsible for the management, conservation, and
protection of living marine resources within the United States Exclusive Economic Zone. The
NMFS Office of Law Enforcement’s mission is to achieve an acceptable level of compliance with
statutes and regulations affecting the living marine resources and marine habitat of the United
States. To accomplish its mission, Enforcement (1) conducts investigations, patrols, and
inspections throughout the United States and its territories, and on the high seas as authorized by
U.S. law and international agreements; (2) engages in public outreach to increase understanding of
laws and of the underlying conservation purposes; (3) provides coordination and support to states,
tribes, and territories enforcing regulations that protect marine resources; and (4) provides training
to other federal and state officers who participate in fisheries enforcement.

NMFS fisheries special agents and fisheries patrol officers have specific authority to enforce 32
statutes related to the conservation and protection of marine resources. Most enforcement
activities are related to the following laws:

   l   Magnuson-Stevens Fishery Conservation and Management Act (16 U.S.C. 1801-1882).
   l   Endangered Species Act (16 U.S.C. 1531-1543).
   l   Marine Mammal Protection Act of 1972 (16 U.S.C. 1361-1407).
   l   Lacey Act Amendments of 1981 (16 U.S.C. 3371-3378).
   l   Marine Protection, Research and Sanctuaries Act (16 U.S.C. 1431-1439).
   l   National Marine Sanctuary Act.

We conducted a performance audit of the Office of Law Enforcement to evaluate the efficiency
and effectiveness of its operations and its coordination efforts with related agencies. During our
review, Enforcement was undergoing numerous management improvements. Our review
identified several areas where additional improvements are warranted. Specifically:

   l   NMFS needs to provide the Office of Law Enforcement with more specific policy
       guidance to assist it in addressing its goals and objectives and allocating its resources. The
       current NMFS guidance to Enforcement is contained in the NOAA Fisheries Strategic
       Plan and is too general to be effective. More specific guidance will assist Enforcement in
       defining its organizational structure and allocating limited resources to meet NMFS’s
       highest priorities (see page 3).

   l   Enforcement needs to establish more specific performance measures. The current
       measures are too limited to address all Enforcement activities, are not tied to the goals and
       objectives in the Enforcement strategic plan, and are not directly linked to offices with
       corresponding responsibility for achieving the measures. Properly developed performance
       measures will help ensure that Enforcement programs meet intended goals, operational
       processes are properly assessed, and continuous program improvement is promoted and
       tracked (see page 6).

                                                   i
U.S. Department of Commerce                                           Report No. STL-9835-8-0001
Office of Inspector General                                                       September 1998


   l   A recent Enforcement sponsored “role and deployment” study was limited in that it did not
       evaluate all options due to planning constraints placed on the study. Management should
       evaluate all options available to Enforcement for achieving its mission and maximize its
       efficiency and effectiveness (see page 8).

   l   Enforcement’s Vessel Monitoring System, a satellite-based fishing vessel tracking and
       monitoring system, was not fully documented, had limited resources, and the use of its data
       as legal evidence had not been tested. The system and its technology are new and under
       development for nationwide implementation. Any system utilizing new technology needs
       to be carefully planned, documented, and tested before widespread implementation
       (see page 11).

We make recommendations for improvements to the Assistant Administrator of Fisheries on pages
4, 7, 9, and 13.

NOAA generally agreed with our findings and recommendations and states that actions have been
taken to implement improvements in several of the areas noted. The Agency’s complete response
is attached as Appendix I.




                                                ii
U.S. Department of Commerce                                              Report No. STL-9835-8-0001
Office of Inspector General                                                          September 1998


                                         INTRODUCTION

The National Marine Fisheries Service is responsible for the management, conservation, and
protection of living marine resources within the United States Exclusive Economic Zone. The
NMFS Office of Law Enforcement’s mission is to achieve an acceptable level of compliance with
NOAA statutes and regulations affecting the living marine resources and marine habitat of the
United States. To accomplish its mission, Enforcement:

   l Conducts investigations, patrols, and inspections throughout the United States and its
       territories, and on the high seas as authorized by U.S. law and international agreements.

   l Engages in public outreach to increase understanding of laws and the underlying
       conservation purposes.

   l Provides coordination and support to states, tribes, and territories enforcing regulations that
       protect marine resources.

   l Provides training to other federal and state officers who participate in fisheries enforcement.

Office of Law Enforcement personnel have specific authority to enforce 32 statutes related to the
conservation and protection of marine resources. However, most enforcement activities are
conducted under the following laws:

   l   Magnuson-Stevens Fishery Conservation and Management Act (16 U.S.C. 1801-1882).
   l   Endangered Species Act (16 U.S.C. 1531-1543).
   l   Marine Mammal Protection Act of 1972 (16 U.S.C. 1361-1407).
   l   Lacey Act Amendments of 1981 (16 U.S.C. 3371-3378).
   l   Marine Protection, Research and Sanctuaries Act (16 U.S.C. 1431-1439).
   l   National Marine Sanctuary Act (Amendment 1 to Department Organization Order 25-5B).

Enforcement is headquartered in Silver Spring, Maryland, and has five regions: Northeast
(Gloucester, MA), Southeast (St. Petersburg, FL), Northwest (Seattle, WA), Southwest (Long
Beach, CA), and Alaska (Juneau, AK). Each regional office is under the supervision of a special
agent-in-charge. NMFS has 50 field enforcement stations throughout the United States, the Virgin
Islands, Puerto Rico, Guam, and American Samoa. In fiscal year 1998, Enforcement had a budget
of $17.6 million and was authorized 164 personnel, of which 131 were special agents or fisheries
patrol officers. Special agents conduct investigations of complex schemes that violate
conservation laws. Fisheries patrol officers are uniformed officers who work closely with industry
representatives and fishers to ensure that they understand the provisions of new regulations;
perform dockside inspections; and document violations of laws and regulations.

Eight Regional Fishery Management Councils are partners with NMFS in managing the Nation’s
fisheries. The councils prepare fishery management plans and amendments that define how

                                                  1
U.S. Department of Commerce                                           Report No. STL-9835-8-0001
Office of Inspector General                                                       September 1998

fisheries should be regulated, and NMFS ensures that the plans and amendments are properly
implemented.

Enforcement has been the subject of numerous peer and OIG reviews. Our last audit, conducted
in September 1991, found that NOAA’s Office of General Counsel diminished Enforcement’s
effectiveness by routinely halving assessed fines; the Enforcement management information
system was deficient; controls over overtime were inadequate; and the system to report
complaints about Enforcement was deficient.

Since late 1995 under a new Chief of the Office of Law Enforcement, Enforcement initiated
numerous management improvements. Specifically, it updated and codified its operations
manual; applied for accreditation with the Commission on Accreditation for Law Enforcement
Agencies; completed inspections of each region’s operations, including the condition of all
manuals, case management process and status, evidence storage and handling, budget, firearm
storage, time and attendance, undercover accounts, and regional programs; initiated a study of its
organizational structure and resource deployment to determine the best structure and deployment
scheme to implement Enforcement’s strategic plan and fulfill its mission; and reviewed the Asset
Forfeiture Fund for compliance with fund requirements.

                                   PURPOSE AND SCOPE

The purpose of our audit was to evaluate the efficiency and effectiveness of the Office of Law
Enforcement’s operations. We reviewed program files, records, and reports at Enforcement
headquarters, the Northwest Regional Office, and the Southeast Regional Office. We interviewed
program officials at Silver Spring, Seattle, Gloucester, Woods Hole (MA), Long Beach, and St.
Petersburg. We also interviewed officials of the U.S. Coast Guard, Alaska Department of Fish
and Wildlife, California Department of Fish and Game, Washington Department of Fish and
Wildlife, and Idaho Department of Fish and Game. Our fieldwork was conducted from January
through April 1998.

We reviewed Enforcement’s compliance with Department Order 25-5b and found no instances of
material noncompliance. We also reviewed Enforcement’s procedures and controls for evaluating
operations, reporting program results, and coordinating with other agencies. Management control
weaknesses related to office priorities, performance measures, and the Vessel Monitoring System
are discussed in our report. We found that coordination efforts with related agencies was
extensive and effective. We did not review the validity and reliability of controls of
computer-generated data because our audit objectives did not require such a review.

This review was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 24, 1980, as amended.




                                                2
U.S. Department of Commerce                                             Report No. STL-9835-8-0001
Office of Inspector General                                                         September 1998



                          FINDINGS AND RECOMMENDATIONS

I. NMFS POLICY DIRECTION FOR ENFORCEMENT NEEDS FOCUS

NMFS has not provided specific, formal policy guidance for the Office of Law Enforcement to
use as a basis for its goals, objectives, and resource allocation. The Government Performance and
Results Act of 1993 (Results Act) seeks to focus government decision making and accountability
on the results of activities. Sound management practice dictates that specific operational guidance
be provided to ensure that Office of Law Enforcement goals, objectives, and resource allocations
are consistent with and facilitate achievement of overall NMFS goals and objectives and to target
the optimal use of resources.

Also required is a description of how the goals and objectives are to be achieved, including the
operational processes, skills, and technology, and the human, capital, information, and other
resources required to achieve them. The establishment of goals and objectives in the context of
management strategies and available resources is consistent with the intentions of the Results Act.

NMFS strategies related to enforcement activities are contained in the NOAA Fisheries Strategic
Plan. The plan contains a general statement charging Enforcement with developing and carrying
out programs, policies, and procedures necessary to enforce all statues and regulations within
NOAA’s broad jurisdiction, with additional general statements on how to improve enforcement
and regulatory effectiveness. The plan states that compliance with laws and regulations is a key
factor in the success of fisheries and protected species management plans.

The discussion of enforcement in the NOAA strategic plan is too general to provide effective
guidance and does not facilitate the development of results-oriented goals and objectives for
enforcement. The plan fails to prioritize the different laws and regulations to be enforced; lacks
outcome-related goals and objectives; and provides no guidance for allocating Enforcement
resources.

The Office of Law Enforcement strategic plan, although more specific than the NOAA Fisheries
Strategic Plan, is also too general to be an effective management tool. The Enforcement plan
contains six general goals:

   l   Strengthen fisheries management.
   l   Facilitate prosecutions.
   l   Expand external partnerships.
   l   Improve internal coordination and team support.
   l   Improve human resource management.
   l   Expand outreach program.




                                                 3
U.S. Department of Commerce                                              Report No. STL-9835-8-0001
Office of Inspector General                                                          September 1998

Each goal consists of a few paragraphs of general discussion followed by several generic
objectives, such as, provide a coordinated process, provide timely review, and enhance the level
of support or cooperation. However, the plan does not contain specific outcome-related goals
and objectives, a description of how they are to be achieved, an indication of the priority placed
on them, or an identification of the resources required to meet them.

The need for the type of planning envisioned by the Results Act is particularly true for the Office
of Law Enforcement because it has extremely limited resources to address its many
responsibilities. Enforcement has only 131 special agents and fishery patrol officers and a $17.6
million budget to enforce 32 statutes over a huge geographical area, an enormous task. For
example, under the Magnuson Act, Enforcement’s responsibilities extend throughout the U.S.
Exclusive Economic Zone (a zone extending 200 miles from the shores of the United States). In
addition, Enforcement has limited jurisdiction for the conservation and protection of anadromous
species that migrate from the sea to fresh water to spawn, all continental shelf fisheries resources,
and highly migratory species extending beyond the Exclusive Economic Zone.

To assist Enforcement in defining its organizational structure and allocating resources to meet
NMFS’s highest priorities, NMFS needs to provide more precise written policy guidance. The
guidance should include overall NMFS priorities and strategies related to enforcement activities.

A.    RECOMMENDATION

We recommend that the Assistant Administrator for Fisheries develop specific agency priorities
and outcome-related goals and objectives for the Office of Law Enforcement for fiscal year 1999.

B.    AGENCY RESPONSE

NOAA did not concur with our conclusion that providing more precise written policy guidance on
NMFS priorities and strategies related to enforcement activities would assist Enforcement in
defining its organizational structure and allocating resources. NOAA agreed that the specifics
being sought by the OIG do not appear in the NOAA Fisheries Strategic Plan. NOAA stated that
the agency priorities and goals have been developed and are tracked at a much lower level of
specificity in the Annual Operation Plan that supports the Strategic Plan. NOAA believes that
upon review of Enforcement’s FY 1999 Operating Plan, the OIG will concur with this assessment.
NOAA also stated that NMFS expected that our audit would include an assessment of whether the
current organizational structure supports the legislative mandates of the Office of Law
Enforcement.

C.    OIG COMMENTS

We still believe that NMFS needs to provide more precise written policy guidance to assist
Enforcement in ensuring that it meets NMFS’s enforcement priorities. Granted, such guidance can
be provided in many forms, including the NOAA Fisheries Strategic Plan or Annual Operating
Plan. Consequently, we reaffirm our recommendation.

                                                  4
U.S. Department of Commerce                                          Report No. STL-9835-8-0001
Office of Inspector General                                                      September 1998

We did not intend to evaluate the organizational placement of the Office of Law Enforcement
within NOAA during our review. However, this issue was raised by the Chief of the Office of Law
Enforcement. We did not find indications that the organizational placement of Enforcement
negatively impacted Enforcement’s ability to perform legislatively mandated responsibilities. In
fact, we requested that the Chief of the Office of Law Enforcement provide us with examples that
the organizational placement of Enforcement was interfering with its ability to perform mandated
responsibilities. These examples were not provided.




                                               5
U.S. Department of Commerce                                             Report No. STL-9835-8-0001
Office of Inspector General                                                         September 1998

II. PERFORMANCE MEASURES NEED TO BE MORE SPECIFIC

Enforcement has not established the type of performance measures needed to comply with the
Results Act, help Enforcement ensure that its programs meet intended goals, assess program
efficiency, and promote program improvement. The Chief of the Office of Law Enforcement
stated that the office had not developed such performance measures because it had not yet been
required to do so.

The Results Act requires that each organizational level develop performance measures that:

   l Demonstrate results by telling how well the organizational level is achieving its goals.

   l Are limited to the key performance dimensions that will enable the organization to assess
       accomplishments, make decisions, realign processes, and assign accountability.

   l Respond to multiple priorities.

   l Are linked directly to the offices with corresponding responsibility for making the programs
       work.

   l Are linked to the parent organization’s goals and tied to budget estimates and obligations.

As noted on page 3, the Office of Law Enforcement strategic plan describes six goals and presents
generic objectives for each goal. However, the plan does not provide specific outcome measures
associated with the goals and objectives.

During our review, Enforcement did identify the following five performance measures for use in
the Commerce FY 1999 Annual Performance Plan and the NOAA FY 1999 Budget Request:

   l   45 initiatives to educate and promote voluntary compliance.
   l   75 regulations downgraded or rewritten.
   l   5 fleets using VMS for some regulations.
   l   160 significant civil/criminal violations documented for prosecution.
   l   A 5% reduction in enforcement risk factors in the most at-risk fisheries each base year.

However, these performance measures are too limited to cover all major Enforcement activities,
are not tied to the six goals and associated objectives, and are not directly linked to the offices
with corresponding responsibility for achieving the measures.

Properly developed performance measures that provide links between strategic goals, resources,
and daily activities are a valuable management tool. More specific measures will give
Enforcement managers and staff (1) a straightforward road map showing how their daily activities
contribute to attaining organization-wide strategic missions and goals, and (2) additional

                                                  6
U.S. Department of Commerce                                               Report No. STL-9835-8-0001
Office of Inspector General                                                           September 1998

 information to ensure that programs meet intended goals, to assess the efficiency of operational
processes, and to promote continuous program improvement.

A.    RECOMMENDATION

We recommend that the Assistant Administrator for Fisheries direct the Chief of the Office of
Law Enforcement to develop performance measures for fiscal year 1999 that link strategic goals,
objectives, resources, and daily activities.

B.    AGENCY RESPONSE

NOAA agreed that the NOAA Fisheries Strategic Plan does not provide specific outcome
measures associated with the goals and objectives of the Office of Law Enforcement. NOAA
stated that it is at the Annual Operating Plan and internal office planning levels that these specifics
become apparent. NOAA asserts that Enforcement had submitted 18 milestones under the
Fisheries strategic plan goals for the FY 1999 budget; additional performance measures are in the
FY 1998 NMFS Annual Operating Plan, and Enforcement had developed its own FY 1998 annual
operating plan to track the NMFS milestones. NOAA stated that a newer Enforcement strategic
plan is being developed and NOAA will be more overtly alert to ensure that it meets GPRA goals.

C.    OIG COMMENTS

Performance measures covering all major Enforcement activities, tied to Enforcement’s goals and
associated objectives, and directly linked to the offices responsible for achieving the measures,
were not provided in NOAA’s response nor were they contained in the NMFS or Enforcement
FY 1998 Annual Operating Plans. Enforcement officials stated that in late July 1998, at the
request of NMFS, Enforcement developed performance measures for the first time for inclusion in
the NMFS FY 1999 Annual Operating Plan. However, these measures do not provide a link
between strategic goals, resources, and daily activities. In addition, Enforcement officials stated
that Enforcement has not developed similar performance measures for the Enforcement Annual
Operating Plan. The Office of Law Enforcement needs to develop and articulate more detailed
and specific performance measures. NOAA should provide this level of detail in its Audit Action
Plan. We reaffirm our recommendation.




                                                  7
U.S. Department of Commerce                                                Report No. STL-9835-8-0001
Office of Inspector General                                                            September 1998

III. ROLE AND DEPLOYMENT STUDY OBJECTIVES WERE LIMITED

The Office of Law Enforcement initiated a study, referred to as the role and deployment study, of
its organizational structure and resource deployment to obtain maximum efficiencies and
effectiveness from existing resources. The study was to develop recommendations that
complemented Enforcement’s vision, mission, and strategic plan. However, the study’s value was
lessened because predetermined constraints prevented the study from considering all available
options.

Sound management practices dictate that the role and deployment study be designed to consider
all available options in providing recommendations for staff and other resource deployment. The
study should identify the universe of Enforcement’s responsibilities, prioritize them, identify the
resources needed to address them, identify existing resources, provide recommended approaches
to fulfilling the responsibilities, and demonstrate how the recommended approaches would
maximize the use of resources.

The role and deployment study’s initial purposes were stated as:

   l Developing an organizational structure and deployment scheme that supports the vision,
       mission, and strategic plan of the Office of Law Enforcement.

   l Developing a transition plan to implement the adopted organizational structure and
       deployment scheme.

   l Incorporating the philosophy of community oriented policing and problem solving.

The study’s purpose was later reduced to developing recommendations that complement and
support Enforcement’s vision, mission, and strategic plan. The Chief of the Office of Law
Enforcement directed that the study be conducted within five constraints:

   l   Maintain a full-time equivalent cap of 164.
   l   Achieve a 1:1 ratio of special agents to fishery patrol officers.
   l   Reduce the number of grades GS-13 and above.
   l   Achieve a 7:1 supervisory to staff ratio.
   l   Improve career paths for Enforcement staff.

In addition, the deployment portion of the study was limited to only 58 of the 164 full-time-
equivalent positions because the consultant performing the study considered the other 106
positions as core or minimum positions. Headquarters officials, special and deputy special agents-
in-charge, regional support personnel, district supervisors, and a minimum of one officer
and one agent per coastal state were not considered for redeployment. The study was scheduled
to be issued in final by September 1, 1998, but still has not been completed.


                                                   8
U.S. Department of Commerce                                              Report No. STL-9835-8-0001
Office of Inspector General                                                          September 1998

The Chief of the Office of Law Enforcement imposed the constraints because of budget
limitations, desires of the Assistant Administrator for Fisheries for a 1:1 mix of special agents to
fishery patrol officers, National Performance Review requirements for flatter organizational
structures, and perceived organizational needs for minimum staffing and career development.
These constraints prevented the study from evaluating all available options for Enforcement to
achieve efficiencies and effectiveness. For example, adopting a 1:1 ratio of special agents to
fishery patrol officers will reduce the number of agents and increase the number of officers. One
reason given for this constraint is to increase Enforcement’s visibility. However, by dictating that
increased visibility be achieved by reducing special agents ignores the option of increasing
visibility through greater use of existing contracts with other enforcement organizations, such as
state enforcement organizations.

A sound planning process should evaluate all available options in order to provide a complete
evaluation of Enforcement and its performance in relation to its mission, priorities, and resources.
The study’s outcomes should include a plan showing the best deployment of resources based on
an analysis of all options in relation to Enforcement’s workload, priorities, and resources. A role
and deployment study that does not evaluate all options may not recommend the option that
would maximize the use of resources.

A.     RECOMMENDATIONS

We recommend that the Assistant Administrator for Fisheries direct the Chief of the Office of
Law Enforcement to:

     l Evaluate the impact of the predetermined constraints placed on the study and determine if
       they were appropriate before implementing its recommendations.

     l In conjunction with the development of measurable Enforcement performance priorities,
       initiate a deployment staffing plan that includes all 164 full-time-equivalent personnel for
       fiscal year 1999.

B.     AGENCY RESPONSE

NOAA agrees that the study was limited in scope but states that the limitations were by design.
The study’s targets were to review specific unresolved issues within NMFS enforcement
operations and pertinent only to the NMFS mission. NOAA notes that the study has not been
completed and suggests it may be premature to project what the findings will be or what actions
NMFS will take in response to them.

C. OIG COMMENTS

Sound management practices dictate that the role and deployment study be designed to consider
all available options. In addition to providing a plan based on an analysis of all options in relation
to Enforcement’s workload, priorities, and resources, the study could provide options
                                                   9
U.S. Department of Commerce                                       Report No. STL-9835-8-0001
Office of Inspector General                                                   September 1998

incorporating any desired constraints of NMFS or the Chief of the Office of Law Enforcement.
We reaffirm our conclusion and believe that NOAA should incorporate our recommendations as it
prepares the final version of the study.




                                             10
U.S. Department of Commerce                                           Report No. STL-9835-8-0001
Office of Inspector General                                                       September 1998

IV. VESSEL MONITORING SYSTEM NEEDS CAREFUL PLANNING

The Vessel Monitoring System (VMS), a satellite-based fishing vessel tracking and monitoring
system, is new and under development for nationwide implementation. The VMS uses satellite
tracking and communications technology to conduct NMFS compliance monitoring activities
from a VMS workstation. The VMS can monitor large geographical areas, and provide real-time
catch reporting data, vessel location, and vessel activity. We noted that the system was not fully
documented, system resources may not have been adequate for scheduled implementation of the
VMS, and use of VMS data as legal evidence had not been tested. Any system under
development utilizing new technology needs to be carefully implemented, planned, documented,
tested, and funded before widespread implementation.

The Office of Law Enforcement initiated and is responsible for the development and
implementation of VMS technology. Enforcement is using VMS technology to assist its efforts to
enforce fishery requirements. Vessel location and activity signature provide the means to monitor
entire fleets for compliance with a variety of management measures through displays of vessel
positions and days-at-sea calculations. For example, VMS can be used to alert NMFS and U.S.
Coast Guard officials when a vessel is approaching a closed area or is at sea during a closed
season.

As part of its national effort to apply VMS technology, Enforcement is monitoring a 120-vessel
domestic Hawaiian longline fleet in the Pacific and 300 scallop and groundfish vessels in the
Northeast, and is conducting a pilot program involving up to 10 vessels in the Southeast.
Implementation of additional Northeast groundfish fisheries, delayed until 1999, will extend
coverage to over 400 vessels in that region. Enforcement is also developing a standardized
system for implementation in future fisheries.

Funding for the VMS program has come either directly from the Enforcement budget or indirectly
through the Asset Forfeiture Fund. The Fund contains fines, penalties, and proceeds of forfeited
assets that are collected by the Secretary of Commerce for violations of marine resource laws.
Expenditures from the Fund are restricted to certain law enforcement and prosecution purposes.

System Documentation. The VMS computer code, operating manual, and contingency plan have
not been adequately documented. The current system was developed by revising off-the-shelf
software to fit VMS, but the revisions are not fully documented. In addition, an operating system
manual and a contingency plan have not been developed. Enforcement officials told us that
documenting the system code is a priority and a contingency plan and operating manual are
needed, but have not been completed.

System Resources. The Northeast VMS is being developed and operated by only one computer
technician and one VMS technician. The scheduled implementation, subsequently delayed, of
additional Northeast fisheries would have increased VMS monitoring to over 400 vessels in that
area. Enforcement personnel acknowledge that the technicians can operate the current system but
believe that more resources will be needed to adequately monitor and maintain the system when it
                                                11
U.S. Department of Commerce                                             Report No. STL-9835-8-0001
Office of Inspector General                                                         September 1998

is expanded to include more vessels and fisheries. Another indicator that additional resources are
needed is that Enforcement has not been able to complete the system documentation and
contingency plan.

Evidence. Enforcement personnel are uncertain if the data produced by the current VMS can be
successfully used as evidence in prosecutions of fishery violators and have not yet tested its use as
evidence. Uncertainties over the use of VMS data as evidence stem from the way the data is
handled and the fact that it has not been tested in a prosecution. The VMS data is transmitted from
a fishing vessel to a vendor in a binary code. The vendor translates the binary code into an ASCII
format that can be read by the Enforcement computer equipment and transmits the reformatted
data to Enforcement. Enforcement is concerned about the use of VMS data for prosecutions
because it does not have the original binary data and the data is translated by a third party, the
vendor. In addition, vendors may not be maintaining the original ASCII code. Enforcement
officials believe that under the rules of evidence VMS data must be maintained in its original
binary form as well as in any manipulated format to provide the best evidence for use in
prosecutions.

Systems under development need to be thoroughly and timely documented, operations manuals
need to be developed, and contingency plans need to be implemented to protect system operations
in case of the loss of key personnel, such as with the development of the original Northeast VMS.
Adequate resources need to be committed to the VMS to meet planned implementation schedules,
ensure system expansion is properly developed, and ensure system operations are not interrupted.
The use of VMS data in prosecutions of fishery violators needs to be tested to ensure that the
current data can be used as evidence, or to assist in making revisions to the VMS or its procedures
to correct any deficiencies.

If the VMS system is not carefully planned and implemented, it could fail for a number of reasons,
including inadequate system hardware, insufficient personnel resources, excessive workload
requirements, and the lack of admissibility of VMS data as evidence.

During our review, Enforcement and NMFS took the following actions to address concerns with
the VMS system:

   l Delayed the scheduled implementation of the Northeast VMS from 56 to 300 vessels and
      deferred further expansion to 400 vessels in that region.

   l Prepared a Northeast Enforcement Division VMS study stating that additional technical
      support will be needed to monitor and maintain an expanded system, VMS data needs to be
      retained in its original form for evidence purposes, VMS regulations need to be modified to
      require vendors to archive data for at least three years, and a VMS operational manual needs
      to be developed.

   l Created a VMS steering committee comprised of both enforcement and fishery management
      officials to oversee the system creation.

                                                  12
U.S. Department of Commerce                                                Report No. STL-9835-8-0001
Office of Inspector General                                                            September 1998

A.      RECOMMENDATIONS

We recommend that the Assistant Administrator for Fisheries direct the Chief of the Office of
Law Enforcement to:

     l Ensure that the newly created VMS steering committee addresses the issues of system
        documentation and resource needs before increasing VMS monitoring in fiscal year 1999.

     l Oversee the completion and documentation of the VMS code, manual, and contingency plan
        before increasing VMS monitoring in fiscal year 1999.

     l Initiate efforts to test VMS data as legal evidence in the first available prosecution case
        where VMS data was instrumental in identifying the violation.

B.      AGENCY RESPONSE

NOAA agreed that, before increasing VMS monitoring in fiscal year 1999, the VMS steering
committee should address the issues of system documentation and resource needs and the VMS
code, manual, and contingency plan should be completed and documented. However, NOAA
believes that initiating a test case for prosecution is the sole responsibility of NOAA General
Counsel for Enforcement and Litigation.

C.      OIG COMMENTS

Although General Counsel for Enforcement and Litigation is ultimately responsible for litigation,
NMFS and the Office of Law Enforcement can initiate actions to convince the NOAA’s General
Counsel’s Office of the importance of testing VMS data as evidence in a prosecution case and
encourage the use of VMS data as evidence. We believe Enforcement can and should obtain
NOAA’s General Counsel’s input on the handling of VMS data and any changes needed to ensure
its use as evidence. We reaffirm our recommendations.




                                                   13
